July 23, 2008

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

ALEXANDER E. LAZAROFF
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Postal Service Continuity of Operations
         for the Great Lakes Area (Report Number SA-AR-08-009)

This report presents the results of our audit of the Postal Service Continuity of
Operations (COOP) for the Great Lakes Area (Project Number 08YG013SA000). Our
objective was to determine whether the Postal Service has a viable COOP capability to
ensure the performance of its essential functions during any emergency that may
disrupt normal operations. We conducted this self-initiated audit because emergency
preparedness (EP) is a critical area for the Postal Service. Click here to go to Appendix
A for additional information about this audit.

Conclusion

We determined management in the Great Lakes Area could enhance their COOP
capability to ensure they can effectively and efficiently continue essential functions
during emergencies that may disrupt normal operations. Based on our audit and the
Postal Service’s response to prior emergencies, we believe they have the capability to
continue mail operations in an emergency. However, the Postal Service has not
implemented sufficient internal controls, and as a result, responsible officials are not
fully prepared to effectively and efficiently continue essential functions during
emergencies that require COOP activation. This could expose employees, mail, critical
assets, and revenue to increased risk. Click here to go to Appendix B for our detailed
analysis of this topic.

Completion of Continuity of Operations Plans

We reviewed a sample of COOP plans1 for the Great Lakes Area and determined that
responsible area officials did not always establish and maintain area, district, and facility
COOP plans in accordance with federal and Postal Service guidance. In addition,
personnel with COOP-related responsibilities did not always update and maintain
COOP plans in the Postal Alert Notification System (PANS) to facilitate EP and
response activities. For example:

1
 The audit team requested COOP plans from 21 sites and received 19 COOP plans for review: one area plan, four
district plans, and 14 facility plans. Two facilities did not have a COOP plan.
Postal Service Continuity of Operations                                                    SA-AR-08-009
 for the Great Lakes Area



•   COOP plans were not always completed or updated annually, as required.

•   The COOP plans we reviewed did not contain all pertinent information, such as
    essential functions, staffing needs, offload plans, and current contact information.

This occurred because Postal Service management did not establish sufficient internal
controls and requirements to ensure COOP plans addressed federal and Postal Service
guidance. Specifically, management did not ensure responsible personnel updated the
contact information of key COOP personnel annually or as needed, and did not
establish:

•   Requirements for mandatory training for COOP personnel, including PANS training,
     to ensure COOP plans were properly completed and maintained.

•   An internal review and approval process to ensure COOP plans were properly
     completed, updated annually, and maintained in PANS, as required.

•   Guidance to identify and prioritize essential functions.

•   An emergency management coordinating committee (EMCC)2 at the area level to
    provide oversight to districts and facilities, as required.

We recommend the Chief Postal Inspector establish requirements for personnel
responsible for continuity of operations to:

1. Update contact information of key continuity of operations personnel at least
   semiannually, or more often as changes occur.3

2. Complete continuity of operations training, including Postal Alert and Notification
   System training.

3. Identify and prioritize essential functions.

Management’s Comments

Management agreed with our findings and recommendations 1 through 3, and stated
they are currently developing a Continuity Management Instruction (MI). The MI will
translate the new federal requirements as described in the Homeland Security
Presidential Directive (HSPD) 20 and Federal Continuity Directives (FCD) 1 and 2 into
Postal Service policy that will be implemented at all levels within the agency. In
addition, a continuity handbook and emergency plan templates for installations will be

2
  Postal Service Administrative Support Manual (ASM), September 27, 2007: The ASM requires an EMCC to be
established in each area to assist inspectors in charge and district managers in developing emergency plans.
3
  Although the Postal Service requires contact information to be updated annually, we are recommending that the
Postal Inspection Service update this information at least semiannually because frequent changes may occur.



                                                         2
Postal Service Continuity of Operations                                 SA-AR-08-009
 for the Great Lakes Area


developed based on the policy requirements detailed in the MI. The handbook and
templates will require contact information for key continuity operations personnel be
updated at least semi-annually, and when changes occur. The handbook will also
document the supporting tasks for the Postal Service mission essential function, which
is to deliver the mail. Management stated the MI, handbook, and emergency plan
templates for operations facilities will be completed by December 31, 2008. The
templates for non-operational facilities will be completed by June 2009.

Management further stated they agreed that the report recommendations will enhance
the Great Lakes Area COOP capability and will ensure they can effectively and
efficiently continue essential functions during emergencies that may disrupt operations.
However, they do not believe the report adequately reflects the tireless efforts of Postal
Service employees and the difficult challenges the Postal Service faced to amend its
priorities and philosophy related to homeland security since September 11, 2001.
Management’s comments, in their entirety, are included in Appendix E.

In supplemental correspondence provided by Postal Inspection Service and Postal
Service management, management agreed to establish requirements for personnel
responsible for COOP to complete COOP and PANS training by the end of fiscal year
(FY) 2009.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and the corrective actions should
resolve the issues identified in the findings.

We recognize in the report that based on our audit and the Postal Service’s response to
prior emergencies, we believe they have the capability to continue mail operations in an
emergency. However, our recommendations, when implemented, should help to
improve the Postal Service’s ability to effectively and efficiently continue essential
functions during emergencies and decrease the risk to employees, mail, critical assets,
and revenues.

We recommend the Vice President, Great Lakes Area Operations, in consultation with
the Chief Postal Inspector:

4. Establish a formal review process to ensure continuity of operations plans are
   completed, updated annually, and maintained in the Postal Alert and Notification
   System, as required.

5. Establish an area emergency management coordinating committee to provide
   oversight and assistance to district and facility Emergency Management Teams in
   establishing, implementing, and reviewing emergency management plans.
Management’s Comments




                                             3
Postal Service Continuity of Operations                                   SA-AR-08-009
 for the Great Lakes Area


Management agreed with our findings and recommendations 4 and 5, and stated they
have developed objectives, goals, and performance measures to ensure the
completeness of Integrated Emergency Management Plans (IEMP) at districts and
installations. National Preparedness templates will be issued by June 2009.

Management also stated the Postal Inspection Service will incorporate requirements for
the EMCC into the new Continuity MI and will work with the area offices to establish the
EMCCs. They further stated the Great Lakes Area had established their EMCC.
However, in supplemental correspondence provided by Great Lakes Area management,
management stated they met in March 2008 to discuss their approach for the EMCC,
but they had not held any formal meetings. They stated they were waiting for
headquarters management to establish the requirement and that they would comply
within 90 days after the requirement has been established.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations, and
the corrective actions should resolve the issues identified in the findings.

Alternate Facilities

Identification

Responsible Great Lakes Area personnel did not always identify appropriate alternate
facilities to ensure they could effectively continue operations. This occurred because
management did not establish specific guidance for identifying alternate facilities, such
as the number of alternate facilities that should be identified, and criteria for location,
mail volume, and mail capacity.

We recommend the Chief Postal Inspector:

6. Establish specific guidance for identifying and selecting alternate facilities, to
   include, at a minimum, the number of alternate facilities that should be identified,
   and criteria regarding location, mail volume, and mail capacity.

Management’s Comments

Management agreed with the finding and recommendation, and stated the new
Continuity MI and handbook will establish guidance for identifying alternate facilities,
including criteria regarding location, function, mail volume, and mail capacity. The MI
and handbook will be issued by December 31, 2008. Management further stated that
the Postal Service’s alternate facility selections are constrained by the facility function
and geographic location and FCD 1 requires the identification of one alternate facility.




                                              4
Postal Service Continuity of Operations                                   SA-AR-08-009
 for the Great Lakes Area


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
the corrective actions should resolve the issue identified in the finding. Although FCD 1
does not specifically require agencies to identify more than one alternate facility, having
additional alternate facilities could help ensure the continuation of essential functions
during emergencies, particularly in an operations-driven environment.

Testing and Exercise

Responsible Great Lakes Area personnel did not always conduct testing and exercises
to ensure alternate facilities could effectively receive and process the primary facilities’
mail. This occurred because management did not establish sufficient requirements for
personnel responsible for COOP at primary and alternate facilities to conduct tests and
exercises to ensure alternate facilities could effectively process the primary facilities’
mail.

We recommend the Chief Postal Inspector:

7. Require personnel responsible for continuity of operations at primary and alternate
   facilities to conduct tests and exercises to ensure alternate facilities can effectively
   process the primary facilities’ mail.

Management’s Comments

Management partially agreed with the recommendation and stated that each facility’s
continuity plan will be tailored to measure offload capability to the extent feasible. Full
scale exercises to test an alternate facility’s capability to handle offload mail volume will
not be undertaken due to negative effects on service. The test, training, and exercise
program will be issued by June 2009.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
the corrective actions should resolve the issue identified in the finding. Conducting tests
and exercises, whether full-scale or smaller, would help ensure the alternate facilities
can effectively and efficiently process the primary facilities’ mail.




                                              5
Postal Service Continuity of Operations                              SA-AR-08-009
 for the Great Lakes Area


The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Pat A. Mendonca
    Zane M. Hill
    Jakki M. Krage
    John F. Bolger
    Katherine S. Banks




                                           6
Postal Service Continuity of Operations                                           SA-AR-08-009
 for the Great Lakes Area



                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service, an independent establishment of the executive branch of the
U.S. government, operates like a business and generated $74.8 billion in revenue in FY
2007.4 The Postal Service is responsible for the development of plans for actions
necessary to maintain itself as a viable part of the federal government during
emergencies.

The Postal Inspection Service is responsible for protecting the mail, Postal Service
assets, and customers. As the emergency coordinator for the Postal Service, the Chief
Postal Inspector is responsible for coordinating emergency planning and civil
preparedness programs and providing training and guidance to responsible EP
personnel.

Consolidation of Postal Service Homeland Security Responsibilities. In March 2007, all
homeland security responsibilities were consolidated under the Postal Inspection
Service. These responsibilities included EP and aviation security. These groups
realigned to form the Office of National Preparedness (ONP) within the Postal
Inspection Service. ONP’s key responsibilities include incident management,
infrastructure protection, aviation mail security, public health preparedness, and
performance measures.

ONP is responsible for developing Postal Service EP policy and guidance, including the
Integrated Emergency Management Plan templates. Its mission is to maintain a high
state of national preparedness across the Postal Service enterprise through a
comprehensive and coordinated approach to planning, integration, and support.

Integrated Emergency Management Plan (IEMP). In January 2004, the Postal Service
established the IEMP as the all-hazard, comprehensive plan for the Postal Service to
mitigate, prepare for, respond to, and recover from any natural or man-made disaster.
The IEMP integrates the Emergency Action Plan5 (EAP), the COOP plan, and annexes
for specific hazards into one plan. District and facility managers are required to update
IEMPs at least annually.

Continuity of Operations Plan. The COOP plan is intended to ensure postal facilities
are prepared to:

           •    Continue essential functions in the event of any emergency that disrupts
                normal operations.



4
    United States Postal Service Annual Report 2007.
5
    The EAP provides evacuation-specific tasks and procedures for the facility.



                                                            7
Postal Service Continuity of Operations                                                      SA-AR-08-009
 for the Great Lakes Area


         •   Protect essential equipment, vital records (operating, legal, and financial), and
             assets.

         •   Reduce or mitigate disruptions to operations by minimizing the loss of
             resources and by providing timely and orderly recovery from an emergency
             and the resumption of full service.

The COOP plan also assists emergency management team (EMT) members in all
phases of emergency management: mitigation, preparedness, response, and recovery.
The Postal Service has developed COOP plan templates for districts and facilities.
Responsible district and facility personnel should tailor the COOP plan templates to
address site-specific requirements and risks.

Federal Preparedness Circular (FPC) 65, Federal Executive Branch Continuity of
Operations, June 15, 2004. FPC 65 provides guidance to Federal Executive Branch
departments and agencies for developing contingency plans and programs for COOP.
FPC 65 establishes COOP planning as the means by which federal departments,
agencies, and their subcomponents ensure their essential functions are performed.
This includes plans and procedures that delineate essential functions; specify
succession to office and the emergency delegation of authority; provide for the
safekeeping of vital records and databases; identify alternate operating facilities;
provide for interoperable communications; and validate the capability through tests,
training, and exercises.6

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Great Lakes Area has a viable COOP
capability to ensure the performance of its essential functions during any emergency
that may disrupt normal operations.

To accomplish our objective, we interviewed Postal Service and Postal Inspection
Service officials, including ONP officials; facility heads; and area, district, and facility
personnel responsible for COOP plans, to gain an understanding of their roles and
responsibilities related to COOP. We reviewed applicable COOP policies and
procedures and assessed related internal controls.

We conducted audit fieldwork at Postal Service Headquarters and various judgmentally
selected sites in the Great Lakes Area. (See Appendix C for a list of sites reviewed.)




6
 In February 2008, the Department of Homeland Security issued FCD 1, Federal Executive Branch National
Continuity Program, and FCD 2, Federal Executive Branch Mission Essential Function and Primary Mission Essential
Function Identification and Submission Process. These directives supersede FPC-65 and establish continuity
planning requirements, including continuity plan templates, to assist departments and agencies in developing internal
continuity processes and procedures. FCDs 1 and 2 are applicable to the Postal Service, and Postal Service
management has indicated they will comply with the directives.



                                                          8
Postal Service Continuity of Operations                                                              SA-AR-08-009
 for the Great Lakes Area


We assessed COOP plans for the area, districts, and critical facilities,7 8 to determine
whether they addressed Postal Service and federal guidance. In addition, we reviewed
training records from the National Training Database to determine whether key
personnel responsible for COOP completed training provided by the Postal Service and
suggested by the Federal Emergency Management Agency (FEMA). We also
accessed data in PANS to determine whether responsible officials updated and
maintained current COOP plans in the system. Although we did not conduct extensive
tests of the accuracy of computer-generated data, we discussed the training records
and PANS data with applicable personnel and compared the data to other source
documents. As a result, we consider the data sufficiently reliable to support the
opinions and conclusions in this report.

We conducted this performance audit from January through June 2008 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on May 9, 2008, and included
their comments where appropriate.

PRIOR AUDIT COVERAGE

In the past 3 years, the OIG issued 11 reports regarding Postal Service emergency
preparedness plans. Eight of the 11 audits related to our review of the Postal Service’s
response to Hurricanes Katrina and Rita. In these reviews, we found that while the
Postal Service took noteworthy actions in responding to the hurricanes, opportunities
existed to enhance emergency preparedness planning and response. Management
generally agreed with our recommendations. Two of the audits related to our review of
emergency plans in the New York Metro and Western Areas. The reports concluded
that Postal Service emergency plans were not always completed in accordance with
federal and Postal Service guidance and did not fully address risk vulnerabilities. We
made five recommendations to improve the EP program. Management agreed with our
recommendations to revise the IEMP, identify facilities that require an IEMP, and
establish performance measures. Management partially agreed with our
recommendations to establish training requirements for EP personnel and to establish
an area EMCC.

In addition, the U. S. Government Accountability Office (GAO) issued four reports on
federal emergency preparedness planning. Overall, the reports concluded that
emergency planning could be improved by providing more effective oversight and

7
  Critical facilities are facilities essential for the delivery of vital services. The Postal Inspection Service provided the
OIG with a list of facilities they determined critical to the Postal Service.
8
  We assessed one facility that was not considered critical; however, the facility ranked second in the nation for total
mail pieces handled.



                                                              9
Postal Service Continuity of Operations                               SA-AR-08-009
 for the Great Lakes Area


conducting test, training, and exercises. GAO made numerous recommendations to
improve emergency planning.

                 REPORT TITLE                        REPORT NUMBER    REPORT DATE

                                          OIG Reports
Postal Service Emergency Preparedness Plans
                                                       SA-AR-08-005    March 21, 2008
for the New York Metro Area
Postal Service Emergency Preparedness Plans
                                                       SA-AR-08-006    March 21, 2008
for the Western Area
Postal Service Emergency Preparedness for
                                                       SA-AR-06-007    August 3, 2006
Hurricanes Katrina and Rita
Hurricane Katrina – The Effectiveness of the
Postal Service Transportation and Logistics            NL-AR-06-006    June 29, 2006
Network
Postal Inspection Service Emergency
                                                       SA-AR-06-005     June 5, 2006
Preparedness for Hurricane Katrina
Postal Inspection Service’s Procurement
Transactions Related to Hurricane Katrina
                                                       SA-AR-06-004     May 30, 2006
Response, Recovery, and Reconstruction
Efforts
Review of Postal Service’s Replacement and
                                                       FA-MA-06-001     May 26, 2006
Repair of Facilities Affected by Hurricane Katrina
National Change of Address – Emergency
                                                       IS-AR-06-005    March 30, 2006
Preparedness
Mail Processing Operations in the Wake of
                                                      NO-MA-06-002     March 27,2006
Hurricanes Katrina and Rita
Postal Service Actions to Safeguard Employees
                                                      HM-AR-06-002    February 15, 2006
from Hurricane Katrina
Postal Inspection Service Emergency
                                                       SA-AR-05-001    January 5, 2005
Preparedness

                                          GAO Reports
The Federal Workplace: Additional Steps
Needed to Take Advantage of Federal Executive
                                                        GAO-07-515        May 2007
Boards’ Ability to Contribute to Emergency
Operations
Catastrophic Disasters: Enhanced Leadership,
Capabilities, and Accountability Controls Will
Improve the Effectiveness of the Nation’s               GAO-06-618    September 2006
Preparedness, Response, and Recovery
System




                                                10
Postal Service Continuity of Operations                           SA-AR-08-009
 for the Great Lakes Area



                 REPORT TITLE                     REPORT NUMBER   REPORT DATE
                                     GAO Reports, continued
Continuity of Operations: Selected Agencies
Could Improve Planning for Use of Alternate        GAO-06-713         May 2006
Facilities and Telework during Disruptions
Continuity of Operations: Agency Plans Have
Improved, but Better Oversight Could Assist        GAO-05-577        April 2005
Agencies in Preparing for Emergencies




                                              11
Postal Service Continuity of Operations                                                         SA-AR-08-009
 for the Great Lakes Area


                                 APPENDIX B: DETAILED ANALYSIS

Completion of Continuity of Operations Plans

Responsible Postal Service officials in the Great Lakes Area did not always establish
and maintain COOP plans for area, districts, and facilities9 in accordance with federal
and Postal Service guidance. In addition, personnel with COOP responsibilities did not
always update and maintain all COOP plans in PANS10 to facilitate emergency
preparedness and response activities. For example:

1. COOP plans were not always completed or updated annually, as required. (See
   Appendix D.) Specifically:

    •    Two facilities did not have a COOP plan.11 In addition, two facility COOP plans
         were not updated annually.

    •    Thirteen COOP plans reviewed were not updated or maintained in PANS.12

2. The COOP plans we reviewed did not contain all pertinent information, such as
   essential functions, staffing needs, offload plans, and current contact information.
   Specifically:

    •    Three of the four district COOP plans did not identify essential functions, as
         required. Although responsibilities were identified for some functional areas,
         such as marketing business service network and finance, districts did not identify
         those critical activities necessary to continue operations in the event of a COOP
         activation.

    •    None of the 14 facility COOP plans we reviewed identified essential functions.13

    •    Four of the 14 facility COOP plans we reviewed did not identify staffing needs.14

    •    Five of the 1415 facility COOP plans we reviewed did not have offload plans.


9
  The audit team requested COOP plans from 21 sites and received 19 COOP plans for review: one area plan, four
district plans, and 14 facility plans. Two facilities did not have COOP plans.
10
   PANS provides Postal Service EMTs with a mechanism to communicate, coordinate, and collaborate effectively
during times of crisis. It is a web-based application that enables a nationwide staff to create, track, and manage
emergencies through all stages.
11
   During our audit, personnel at one facility developed that facility’s first COOP plan.
12
   In May 2006, the Vice President of Emergency Preparedness issued a memorandum requiring personnel to update
and maintain COOP plans in the Postal Emergency Management System (PEMS). In September 2006, Postal
Service management changed the name of the system from PEMS to PANS. The name change did not affect the
system’s mission and functions.
13
   The facility’s COOP plan template did not require the identification of essential functions.
14
   The staffing that is required at offload locations to support the volume and operations being diverted, as well as the
continuation of other essential operations activities.
15
   Installation offload plans are used to identify offload sites to process mail when the installation is closed and its
COOP plan is activated.



                                                           12
Postal Service Continuity of Operations                                                      SA-AR-08-009
 for the Great Lakes Area


These situations occurred because Postal Service management did not establish
sufficient internal controls and requirements to ensure COOP plans addressed federal
and Postal Service guidance. Specifically, management did not ensure responsible
personnel updated the contact information of key COOP personnel at least annually.16
In addition, management did not establish:

     •   Requirements for mandatory training, including PANS training, for COOP
         personnel to ensure COOP plans were properly completed and maintained.17
         Fourteen of 20 personnel interviewed did not receive PANS training.

     •   An internal review and approval process to ensure COOP plans were properly
         completed, updated annually, and maintained in PANS.

     •   Guidance to identify and prioritize essential functions.18

     •   An EMCC19 at the area level to provide oversight to districts and facilities.

Alternate Facilities

Identification

Responsible Great Lakes Area personnel did not always identify appropriate alternate
facilities20 to ensure they could effectively continue operations. For example:

     •   Great Lakes Area officials identified two alternate facilities for the area office.
         However, both facilities were located within a 3-mile radius of the area office.
         Using alternate facilities within 3 miles of the primary site increases the risk that a
         single incident, such as a power outage or act of terrorism, could affect the
         primary and alternate sites.

     •   The xxx xxxxx xxxxxxxxxx xxx xxxxxxxxxxxx xxxxxx xxxxxx identified only one
         alternate facility. The alternate facility identified could not absorb all of the xxx
         xxxxx xxxxxx mail, and was located about 250 miles away in a different Postal
         Service area. During our audit, management acknowledged that the alternate
         facility selected was not a good choice because of its limited capabilities and
         distance from the xxx xxxxx xxxx. They took corrective action and identified two
         additional alternate facilities located in the Great Lakes Area, closer to the
         primary facility.
16
   The Postal Service IEMPs for districts and installations require the responsible managers to update COOP plans
annually or whenever circumstances dictate.
17
   FEMA offers several online COOP courses at no charge, including “Continuity of Operations Awareness Course,”
IS-546, and “Introduction to Continuity of Operations,” IS-547. In addition, the Postal Service has provided IEMP and
other COOP related training.
18
   FEMA’s FPC 65 states that essential functions should be identified and prioritized.
19
   The ASM requires that EMCCs be established in each area to assist inspectors in charge and district managers in
developing emergency plans.
20
   FPC 65 provides guidance to identify and prepare alternate operating facilities as part of their COOP plans. To
minimize risks, distance and geographical location should be considered when selecting alternate facilities.



                                                         13
Postal Service Continuity of Operations                                                   SA-AR-08-009
 for the Great Lakes Area



These situations occurred because management did not establish specific guidance for
identifying alternate facilities, such as the number of alternate facilities that should be
identified, and criteria for location and mail volume or capacity. According to guidance
provided by FEMA in FPC 65, at a minimum, an all-hazard risk assessment should be
performed when selecting alternate operating facilities to ensure COOP.

Testing and Exercises

Responsible Great Lakes Area personnel did not always conduct tests and exercises to
ensure alternate facilities could effectively receive and process the primary facilities’
mail.21 For example, the xxx xxxxx xxxx and Bulk Mail Center did not conduct any
exercises or tests of alternate facilities.

This occurred because management did not establish sufficient requirements for
personnel responsible for COOP at primary and alternate facilities to conduct tests and
exercises to ensure alternate facilities could effectively process the primary facilities’
mail. For example, personnel at alternate facilities did not download sort plans in mail
processing equipment to ensure the equipment could effectively handle mail from
primary facilities.




21
   FPC 65 provides guidance to plan, conduct, and document annual tests and exercises to demonstrate the plan’s
viability and identify deficiencies



                                                       14
Postal Service Continuity of Operations                                 SA-AR-08-009
 for the Great Lakes Area



          APPENDIX C: GREAT LAKES AREA, DISTRICTS, AND FACILITIES

                          GREAT LAKES AREA

                                NAME                              CITY        STATE
     1    xxxxx xxxxx xxxx xxxxxx                             Bloomingdale    Illinois

                                 DISTRICTS

                                    NAME                           CITY         STATE
     1    Xxxxxxx                                             Chicago        Illinois
     2    Xxxxxxx                                             St. Louis      Missouri
     3    Xxxxxxxx                                            Milwaukee      Wisconsin
     4    xxxxxxxx xxxxxxxx                                   Carol Stream   Illinois

                                 FACILITIES

                                NAME                              CITY          STATE
     1    xxxxx xxxxxx xxxxxxxxxx xxx xxxxxxxxxxxx xxxxxxxx   Carol Stream   Illinois
     2    xxxxxxxxx xxxxxxxxxx xxx xxxxxxxxxxxx xxxxxxxx      Champaign      Illinois
     3    xxxxxxx xxxx xxxx xxxxxx                            Forest Park    Illinois
     4    xxxxxxx xxxxxxxxxxxxx xxxxxxx xxxxxx                Chicago        Illinois
          xxxxxxx xxxxxxx xxxxxxx xxxxxxxxxx xxx              Chicago        Illinois
     5
          xxxxxxxxxxxx xxxxxx
     6    xxxxxxx xxxxxxxx xxxx xxxxxx                        Detroit        Michigan
     7    xxxx xxxxx xxxxxx xxxxxxxx xxxxxx                   Fort Wayne     Indiana
          xxxxx xxxxxx xxxx xxxx xxxxxx                       Grand          Michigan
     8
                                                              Rapids
          xxxxx xxxxxx xxxxxxxxxx xxx xxxxxxxxxxxx xxxxxx     Grand          Michigan
     9
                                                              Rapids
     10   xxxxxxxxxxxx xxxx xxxxxxxxxx xxxxx                  Indianapolis   Indiana
     11   xxxxxxx xxxxxxxxxx xxx xxxxxxxxxxxx xxxxxx          Madison        Wisconsin
     12   xxxxxxxxx xxxxxxxxxx xxx xxxxxxxxxxxx xxxxxx        Milwaukee      Wisconsin
     13   xxxxxxxx xxxxxxxxxx xxx xxxxxxxxxxxx xxxxxx         Palatine       Illinois
     14   xxx xxxxx xxxx xxxx xxxxxx                          St. Louis      Missouri
     15   xxx xxxxx xxxxxxxxxx xxx xxxxxxxxxxxx xxxxxx        St. Louis      Missouri
     16   xxxxxxxxxx xxxx xxxx xxxxxx                         Southfield     Michigan




                                              15
Postal Service Continuity of Operations                                                  SA-AR-08-009
 for the Great Lakes Area


           APPENDIX D: STATUS OF CONTINUITY OF OPERATIONS PLANS


                                                                                                 Updated
                                                      Completed or           Identified             and
                                                        Updated              Essential          Maintained
                    Name                                Annually             Functions           in PANS
1     xxxxx xxxxx xxxx xxxxxx                             Yes                   Yes                 No

                     DISTRICTS

                                                                                                 Updated
                                                      Completed or           Identified             and
                                                        Updated              Essential          Maintained
                         Name                           Annually             Functions           in PANS
1     Xxxxxxx                                             Yes                   No                  No
2     Xxxxxxx                                             Yes                   No                  Yes
3     Xxxxxxxx                                            Yes                   Yes                 Yes
4     xxxxxxxx xxxxxxxx                                   Yes                   No                  No

                     FACILITIES

                                                                                                 Updated
                                                      Completed or            Identified            and
                                                        Updated               Essential         Maintained
                         Name                          Annually22             Function           in PANS
1     xxxxx xxxxxx xxxxxxxxxx xxx                         Yes                    No                 No
      xxxxxxxxxxxx xxxxxxxx
2     xxxxxxxxx xxxxxxxxxx xxx                               Yes                  No                 Yes
      xxxxxxxxxxxx xxxxxxxx
3     xxxxxxx xxxx xxxx xxxxxx                               Yes                  No                 No
4     xxxxxxx xxxxxxxxxxxxx xxxxxxx                          Yes                  No                 No
      xxxxxx
5     xxxxxxxxxxxxxxx xxxxxxx xxxxxxxxxx                     Yes                  No                 No
      xxx xxxxxxxxxxxx xxxxxx
6     xxxxxxx xxxxxxxx xxxx xxxxxx                           No                   No                 No
7     xxxx xxxxx xxxxxx xxxxxxxx xxxxxx                      No                  N/A23               N/A
8     xxxxx xxxxxx xxxx xxxx xxxxxx                          Yes                  No                 No
9     xxxxx xxxxxx xxxxxxxxxx xxx                            Yes                  No                 Yes
      xxxxxxxxxxxx xxxxxx
10    xxxxxxxxxxxx xxxx xxxxxxxxxx xxxxx                     Yes                  No                 No
11    xxxxxxx xxxxxxxxxx xxx xxxxxxxxxxxx                    Yes                  No                 Yes

22
   The xxxx xxxxx xxxxxx xxxxxxxx xxxxxx and xxxxxxxxxx xxxx xxxx xxxxxx did not have a COOP plan. In addition,
the xxxxxxx xxxxxxxx xxxx xxxxxx and xxxxxxxxx xxxx COOP plans were not updated annually as required. The
latest plans were dated September 2004 and September 2006, respectively.
23
   Not applicable because plan was not completed.



                                                      16
Postal Service Continuity of Operations                           SA-AR-08-009
 for the Great Lakes Area


      Center
                                                                        Updated
                                          Completed or   Identified        and
                                            Updated      Essential     Maintained
                        Name                Annually     Functions      in PANS
12    xxxxxxxxx xxxxxxxxxx xxx                No            No             No
      xxxxxxxxxxxx xxxxxx
13    xxxxxxxx xxxxxxxxxx xxx                  Yes          No              No
      xxxxxxxxxxxx xxxxxx
14    xxx xxxxx xxxx xxxx xxxxxx               Yes          No             No
15    xxx xxxxx xxxxxxxxxx xxx                 Yes          No             Yes
      xxxxxxxxxxxx xxxxxx
16    xxxxxxxxxx xxxx xxxx xxxxxx              No           N/A             N/A




                                          17
Postal Service Continuity of Operations                     SA-AR-08-009
 for the Great Lakes Area


                        APPENDIX E: MANAGEMENT’S COMMENTS




                                          18
Postal Service Continuity of Operations        SA-AR-08-009
 for the Great Lakes Area




                                          19
Postal Service Continuity of Operations        SA-AR-08-009
 for the Great Lakes Area




                                          20
Postal Service Continuity of Operations        SA-AR-08-009
 for the Great Lakes Area




                                          21
Postal Service Continuity of Operations        SA-AR-08-009
 for the Great Lakes Area




                                          22
Postal Service Continuity of Operations        SA-AR-08-009
 for the Great Lakes Area




                                          23
Postal Service Continuity of Operations        SA-AR-08-009
 for the Great Lakes Area




                                          24
